Service List
Caldara v. City of Boulder, et al.
No. 18-1421 (10th Circuit Apr. 10, 2020)

Attorney for Respondents
Robert Reeves Anderson
Counsel of Record
Arnold & Porter Kaye Scholer LLP
1144 Fifteenth Street
Suite 3100
Denver, CO 80202
Firm: 303-863-2393
Email: reeves.anderson@arnoldporter.com
Party Names:
Defendant-Appellees: City of Boulder; Jane S. Brautigam, City Manager of the City of
Boulder, in her official capacity; Maris Herold, Chief of Police of the City of Boulder, in
her official capacity (formerly Gregory Testa).
Defendants in the U.S. District Court for the District of Colorado: Aaron Brocket;
Cynthia A. Carlisle; Jill Adler Grano; Suzanne Jones; Lisa Morzel; Mirabai Kuk Nagle;
Samual P. Weaver; and Robert Yates.

